HHS/OIG, Audit - "Review of Nebraska's Undistributable Child Support
Collections for the Period October 1, 1998, Through September 30, 2005,"
(A-07-06-03085)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nebraska's
Undistributable Child Support Collections for the Period October 1, 1998,
Through September 30, 2005," (A-07-06-03085)
March 29, 2007
Complete Text of Report is available in PDF format (685 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the State agency appropriately recognized and reported program income for undistributable child support collections and interest earned on child support collections. The State agency did not recognize and report program income for undistributable child support collections because the State did not have policies and procedures to recognize and report such collections. As a result, for the period October 1, 1998, through September 30, 2005, the State agency did not recognize and report program income totaling an estimated $467,941 ($308,841 Federal share).
We recommended that the State agency: (1) report on the quarterly Federal financial report (Form OCSE-396A) $339,528 ($224,088 Federal share) of Title IV-D program income that three Clerk of the District Court offices transferred to the State Treasurer as abandoned property; (2) report $128,413 ($84,753 Federal share) in Title IV-D program income on Form OCSE-396A; (3) work with the Office of Child Support Enforcement to review the other 89 Clerk of District Court offices and determine whether they have appropriately declared and transferred to the State Treasurer any remaining undistributable child support collections and report them as program income on Form OCSE-396A; and (4) develop policies and procedures to ensure that undistributable child support collections are recognized, considered abandoned after 3 years, and reported as program income. The State agency agreed with all of our findings and recommendations.